Department of Health and Human Services
             OFFICE OF
        INSPECTOR GENERAL




   MEDICARE OVERPAYMENTS
    IDENTIFIED BY PROGRAM
   SAFEGUARD CONTRACTORS




                    Daniel R. Levinson
                     Inspector General

                       May 2010
                     OEI-03-08-00031
   E X E C U T I V E                                      S U M M A R Y


                  OBJECTIVE
                  To determine the number, dollar amount, and claim type of Medicare
                  overpayments that program safeguard contractors (PSC) identified and
                  referred to claims processors for collection in 2007.


                  BACKGROUND
                  This report and a companion Office of Inspector General (OIG) report,
                  entitled Collection Status of Medicare Overpayments Identified by
                  Program Safeguard Contractors, OEI-03-08-00030, are our response to a
                  congressional request regarding the identification and collection of
                  PSCs’ overpayment referrals.

                  The Centers for Medicare & Medicaid Services (CMS) had 18 benefit
                  integrity task orders with PSCs in 2007. Each task order covers a
                  geographic jurisdiction. In this report, the term “PSC” refers to a PSC
                  benefit integrity task order.

                  PSCs are required to detect and deter fraud and abuse in Medicare
                  Part A and/or Part B in their jurisdictions. PSCs conduct
                  investigations; refer cases to law enforcement; and take administrative
                  actions, such as referring overpayments to claims processors for
                  collection and return to the Medicare program.

                  For this report, we collected 2007 overpayment referrals from all
                  18 PSCs in operation in 2007. We also collected from CMS information
                  on the dollar amount of Medicare payments for which PSCs had
                  oversight responsibility in 2007. We use the term “size of oversight
                  responsibility” to refer to the amount of these Medicare payments.


                  FINDINGS
                  PSCs referred $835 million in overpayments to claims processors
                  for collection in 2007; however, two PSCs were responsible for
                  62 percent of this amount. All 18 PSCs referred a total of
                  4,239 overpayments to claims processors for collection in 2007. These
                  overpayments totaled $835 million. PSCs differed substantially in the
                  dollar amounts of overpayments they referred for collection in 2007.
                  PSCs referred from $3 million to $266 million in overpayments for
                  collection, with a median of $15 million. Two PSCs were responsible for
                  62 percent, or $519 million, of $835 million in overpayments referred for
                  collection. Both of these PSCs covered at least one State that has a


OEI-03-08-00031   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   i
E X E C U T I V E                         S U           M M A R Y


                   large population of Medicare beneficiaries and is considered by CMS to
                   be vulnerable to fraud and abuse. However, these PSCs were not the
                   only PSCs that covered at least one State considered vulnerable to fraud
                   and abuse.

                   The amounts of overpayment dollars that PSCs referred for collection
                   were not always related to the size of PSCs’ oversight responsibility.
                   For example, the PSC with the most overpayment dollars referred for
                   collection ($266 million) had the third smallest oversight responsibility
                   ($5 billion) of all 18 PSCs.
                   While Part B payments represented 29 percent of PSCs’ oversight
                   responsibility, Part B overpayments accounted for 89 percent of
                   PSCs’ overpayment dollars referred for collection. Of the
                   $835 million in PSC overpayments referred for collection, $747 million,
                   or 89 percent, was for Part B claims. The remaining $88 million, or
                   11 percent of overpayments referred for collection, was for Part A.
                   However, Part B payments represented 29 percent of all PSCs’ oversight
                   responsibility ($87 billion of $296 billion), and Part A payments
                   represented 71 percent of all PSCs’ oversight responsibility ($209 billion
                   of $296 billion). Thirteen of eighteen PSCs have responsibility for both
                   Parts A and B. Of these 13 PSCs, 8 had greater overpayment dollars for
                   Part B.

                   Durable medical equipment, prosthetics, orthotics, and supplies
                   (DMEPOS) made up 45 percent of Part B overpayment dollars that
                   PSCs referred for collection ($335 million of $747 million) and
                   12 percent of PSCs’ oversight responsibility for Part B ($10 billion of
                   87 billion). Of PSC overpayments referred for collection, the dollars
                   referred for every $1 million of oversight responsibility were 79 times
                   higher for DMEPOS ($33,210) than for Part A ($420) and 6 times higher
                   than other types of Part B ($5,368).

                   Two provider types made up 80 percent of the overpayment dollars.
                   These two types of providers were physicians ($336 million) and
                   DMEPOS suppliers ($335 million).


                   RECOMMENDATIONS
                   PSCs were established to strengthen CMS’s ability to detect and deter
                   fraud and abuse in Medicare Parts A and B. PSCs conduct
                   investigations of potential fraud and abuse; refer cases to law
                   enforcement; and take administrative actions, such as referring


 OEI-03-08-00031   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   ii
E X E C U T I V E                         S U           M M A R Y


                   overpayments to claims processors for collection and return to the
                   Medicare program.

                   In this report, we found that PSCs’ overpayment amounts varied and
                   were not always related to the size of their oversight responsibility. We
                   also found that there were greater overpayment amounts for Part B
                   than Part A, even though Part A represents the greater amount of
                   PSCs’ oversight responsibility.

                   Based on the substantial differences between individual PSCs’
                   overpayment referrals and the significant difference between Part A
                   and Part B referrals, we recommend that CMS:
                   Determine why certain PSCs have low levels of overpayment dollars
                   referred for collection compared to their oversight responsibility.
                   CMS should determine whether these PSCs are taking all necessary
                   steps to identify overpayments during their investigative work.
                   Determine why certain PSCs have low Part A overpayment dollars
                   referred for collection compared to their Part B overpayment dollars
                   referred for collection. CMS should determine whether these PSCs are
                   taking all necessary steps to identify Part A overpayments.



                   AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                   RESPONSE
                   CMS concurred with both recommendations. In response to the first
                   recommendation, CMS agreed that there has not been a clear
                   correlation between the levels of overpayment dollars recovered and the
                   scope of PSCs’ oversight responsibility. CMS is in the process of
                   transitioning PSCs to seven Zone Program Integrity Contractors (ZPIC).
                   Each ZPIC will be responsible for all claim types in its geographic zone.
                   CMS believes that the new strategy should address OIG’s concerns
                   regarding the gap between scope of responsibility and level of dollars
                   recovered.

                   In response to the second recommendation, CMS stated that in the new
                   ZPIC contracting strategy, each ZPIC has responsibility for all claim
                   types in its geographic zone and is required to have staff with expertise
                   in each claim type. CMS also stated that this approach will allow for
                   greater recoveries as overpayment issues can be identified across
                   multiple payors and benefit categories. CMS reported that it will



 OEI-03-08-00031   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   iii
E X E C U T I V E                         S U           M M A R Y


                   monitor both overpayment and collection activities to ensure that its
                   contractors are adequately performing their oversight responsibilities.

                   OIG believes it is too early to determine whether the ZPIC contracting
                   strategy will address all the issues in this report. Until the transition
                   from PSCs to ZPICs is complete and the results of ZPICs’ overpayment
                   identification activities are evaluated, CMS’s monitoring of
                   overpayment and collection activities is critical. OIG believes that until
                   the ZPICs are fully transitioned, CMS should also monitor the
                   overpayment activities of the remaining PSCs.




 OEI-03-08-00031   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   iv
   T A B L E          O F           C O N T E N T S



         EXECUTIVE SUMMARY .....................................i



         INTRODUCTION ........................................... 1



         FINDINGS ................................................. 6
                   PSCs referred $835 million in overpayments to claims processors
                   for collection in 2007; however, two PSCs were responsible for
                   62 percent of this amount . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6

                   While Part B payments represented 29 percent of PSCs’ oversight
                   responsibility, Part B overpayments accounted for 89 percent of
                   PSCs’ overpayment dollars referred for collection . . . . . . . . . . . . . . 8


         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11
                   Agency Comments and Office of Inspector General Response . . . . 12


         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 13
                   A: Benefit Integrity Task Orders in 2007 . . . . . . . . . . . . . . . . . . . 13

                   B: Parts A and B Overpayments That Program Safeguard
                      Contractors Referred for Collection in 2007 by Provider Type. 14

                   C: Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 15


         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18
   I N T R O D U C T I O N

                  OBJECTIVE
                  To determine the number, dollar amount, and claim type of Medicare
                  overpayments that program safeguard contractors (PSC) identified and
                  referred to claims processors for collection in 2007.


                  BACKGROUND
                  This report and a companion Office of Inspector General (OIG) report,
                  entitled Collection Status of Medicare Overpayments Identified by
                  Program Safeguard Contractors, OEI-03-08-00030, were prepared in
                  response to a request from the Committee on Energy and Commerce’s
                  Subcommittee on Oversight and Investigations in the U.S. House of
                  Representatives.

                  Although past OIG studies have looked at fraud and abuse detection
                  and deterrence by PSCs, 1 this is the first work to address overpayment
                  referrals by PSCs to claims processors for collection. The referral of
                  overpayments to claims processors for collection is an important PSC
                  activity because it may lead to the recovery of funds to the Medicare
                  program. This report provides information on how PSCs are performing
                  regarding the number and dollar amount of overpayments that they
                  refer for collection.
                  Program Safeguard Contractors
                  PSCs conduct investigations; refer cases to law enforcement; and take
                  administrative actions, such as referring overpayments to claims
                  processors. In their investigative work, PSCs review Medicare
                  payments and may identify overpayments. 2 When they do so, they are
                  required to refer overpayments that they identify to Medicare claims
                  processors for collection and return to the Medicare program. 3
                  CMS awards benefit integrity task orders to PSCs. These task orders
                  require PSCs to detect and deter fraud and abuse in Medicare Part A
                  and/or Part B. Each task order covers a specific geographic jurisdiction.

                     1 OIG, Medicare’s Program Safeguard Contractors: Performance Evaluation Reports,
                  OEI-03-04-00050, March 2006. Accessed at http://oig.hhs.gov/oei/reports/oei-03-04-
                  00050.pdf on August 11, 2009. OIG, Medicare’s Program Safeguard Contractors: Activities
                  to Detect and Deter Fraud and Abuse, OEI-03-06-00010, July 2007. Accessed at
                  http://oig.hhs.gov/oei/reports/oei-03-06-00010.pdf on August 11, 2009.
                    2 PSCs were authorized to perform such work pursuant to the Medicare Integrity
                  Program. Social Security Act, § 1893, 42 U.S.C. § 1395ddd.
                    3 Centers for Medicare & Medicaid Services (CMS), Medicare Program Integrity Manual,
                  Pub. No. 100-08, ch. 3, § 3.8.



OEI-03-08-00031   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS                 1
I N T R O D        U C T              I O N

                    In 2007, CMS had 18 benefit integrity task orders with PSCs, which are
                    listed in Appendix A. In this report, the term “PSC” refers to a PSC
                    benefit integrity task order.

                    In 2007, 13 of the 18 PSCs had responsibility for both Medicare Parts A
                    and B; 1 had Part A only; 1 had Part B only; and 3 had only Part B
                    durable medical equipment, prosthetics, orthotics, and supplies
                    (DMEPOS).

                    PSCs had oversight responsibility for Medicare Part A and Part B
                    payments totaling $296 billion in 2007. We refer to this as PSCs’ “size
                    of oversight responsibility.” Seventy-one percent of their oversight
                    responsibility was for Part A and 29 percent was for Part B. Other
                    Medicare contractors also have oversight of Part A and Part B
                    payments; however, PSCs focus specifically on detecting and deterring
                    fraud and abuse related to these payments.
                    Zone Program Integrity Contractors
                    CMS is in the process of transitioning PSCs to Zone Program Integrity
                    Contractors (ZPIC). Until the transition from PSCs to ZPICs is
                    complete, ZPICs and PSCs will both be responsible for Parts A and B
                    and for referring identified overpayments to claims processors for
                    collection.

                    The transition of PSCs to ZPICs is part of CMS’s consolidation of
                    fraud-fighting work so that Parts A, B, C, and D will be under one type
                    of contractor, the ZPIC. CMS expects to have a total of seven ZPICs.
                    Two ZPICs became operational in February 2009, and CMS expects that
                    by the end of 2010, all PSC work will be transitioned to ZPICs.
                    According to CMS staff, five ZPICs that cover high-fraud regions will be
                    expected to focus on quick response to fraud and administrative
                    actions.4
                    Claims Processors
                    Among their responsibilities, Medicare claims processors collect
                    overpayments that are identified by PSCs and other sources. In 2007,
                    the claims processors that received overpayment referrals from PSCs
                    were fiscal intermediaries, carriers, or Medicare administrative
                    contractors. These claims processors had responsibility for specific
                    geographic jurisdictions and claim types. Fiscal intermediaries were

                        4 Director, Program Integrity Group, CMS, presentation slides (p. 4), “PI Contracting
                    Overview – MEDIC vs. ZPIC,” July 29, 2009, for American Health Lawyers Association
                    Part D Compliance Webinar.



 OEI-03-08-00031    M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS                       2
I N T R O D        U C T              I O N

                    responsible for Part A, carriers for Part B, and Medicare administrative
                    contractors for Parts A and/or B.

                    Claims processors in a PSC’s jurisdiction are known as the PSC’s
                    affiliated contractors. Because PSCs and claims processors do not cover
                    identical jurisdictions and claim types, a PSC may have more than one
                    affiliated claims processor and a claims processor may have more than
                    one PSC in its jurisdiction.

                    The claims processors are also responsible for keeping track of collection
                    information on the overpayments they seek to recover. At the time of
                    our review, PSCs were not required to keep track of the amount claims
                    processors collect on PSC overpayment referrals. However, as of 2009,
                    CMS is providing ZPICs with incentives to keep track of the amounts
                    claims processors collect on ZPIC overpayment referrals. CMS is also
                    providing claims processors with incentives to provide collection
                    information to ZPICs. These incentives involve reimbursement to
                    ZPICs and claims processors under their respective contracts’
                    performance award fee provisions.
                    Overpayment Collection Process
                    Dollar amount of overpayment. A single overpayment that a PSC
                    identifies and refers for collection may include numerous claims. In
                    addition, the PSC may identify either an actual dollar amount that the
                    provider owes or an extrapolated dollar amount based on a sample of
                    the provider’s claims. 5 The claims processor reviews all the
                    overpayment referral information provided by the PSC and makes a
                    final determination as to the dollar amount to be collected. 6 The dollar
                    amount that the claims processor seeks to collect from the provider
                    based on this final determination may be the same as, more than, or
                    less than the overpayment dollar amount that the PSC referred for
                    collection.




                        5 CMS,       Medicare Program Integrity Manual, ' 3.8.1.
                        6 CMS,       Medicare Financial Management Manual, Pub. No. 100-06, ch. 4, '' 10 and 80.2.



 OEI-03-08-00031    M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS                        3
I N T R O D        U C T              I O N



                    METHODOLOGY
                    Scope
                    We reviewed PSC data on overpayments that each PSC referred to
                    claims processors for collection in 2007.
                    Data Sources and Data Collection
                    Centers for Medicare & Medicaid Services. From CMS’s Program
                    Integrity Group in the Office of Financial Management, we collected the
                    following information:

                           a list of PSCs and their jurisdictions in 2007;

                           the dollar amount of each PSC’s oversight responsibility for 2007 by
                            Part A, Part B (excluding DMEPOS), and DMEPOS; and

                           contact information for each PSC.

                    Program safeguard contractors. We collected information from all
                    18 PSCs during the timeframe May to October 2008. We requested
                    information regarding each overpayment that each PSC referred to
                    claims processors for collection in 2007. The information included:
                          the date that the overpayment was referred to the claims
                           processor,
                          the dollar amount of the overpayment, 7

                          the provider name and identification number,
                          the provider type (e.g., hospital), and
                          the claim type (e.g., Part A).

                    Analysis
                    PSCs provided information for 4,242 overpayment referrals. We
                    removed three of these overpayments from our analysis because neither
                    the PSC nor the claims processor provided the referral dollar amounts.
                    Therefore, we reviewed 4,239 overpayment referrals for this report. 8
                    For each PSC, we identified the total dollar amount of overpayments
                    referred for collection and calculated its percentage of aggregated PSC
                    overpayments referred for collection. We also compared the total


                      7 For one PSC for which the claims processor had to calculate the overpayment, we used
                    the claims processor’s information as the overpayment amount.
                        8 Of the 4,239 overpayments, only 1 was made to a beneficiary.




 OEI-03-08-00031    M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS                      4
I N T R O D        U C T              I O N

                    overpayment dollars it referred for collection with its oversight
                    responsibility and calculated the dollar amount of overpayment
                    referrals for every $1 million in oversight responsibility.

                    We reviewed each PSC’s overpayment referrals by claim type and
                    summarized the dollar amounts of overpayments by Part A and Part B
                    (including DMEPOS). We compared these dollar amounts with the
                    PSC’s oversight responsibility by Part A and Part B (including
                    DMEPOS). We also calculated the percentage of Part B overpayment
                    dollars that represented DMEPOS overpayments.

                    We summarized all overpayment referral data by individual PSC and
                    for all PSCs. We also reviewed and summarized overpayment referrals
                    by provider type.

                    We assigned an identification number, from 1 to 18, to the 18 PSCs in
                    our review. We use these identification numbers in our report to enable
                    the reader to identify information related to the same PSC across the
                    different tables without disclosing details on specific PSCs.
                    Limitations
                    We did not independently verify the dollar amount of Medicare
                    payments provided by CMS or the overpayment referral data provided
                    by PSCs.
                    Standards
                    This study was conducted in accordance with the Quality Standards for
                    Inspections approved by the Council of the Inspectors General on
                    Integrity and Efficiency.




 OEI-03-08-00031    M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   5
       F I N D I N G S


PSCs referred $835 million in overpayments to            All 18 PSCs referred a total of
     claims processors for collection in 2007;           4,239 overpayments to claims
     however, two PSCs were responsible for              processors for collection in 2007.
                                                         These overpayments totaled
                    62 percent of this amount
                                                         $835 million. However, the dollar
                      amounts of overpayments referred varied substantially by PSC. As
                      shown in Table 1, PSC 1 referred $266 million in overpayments. This
                      amount was more than 100 times greater than PSC 18’s amount. The
                      median dollar amount of overpayments referred for collection was
                      $15 million.
                      Table 1 also shows that two PSCs (PSC 1 and PSC 2) were responsible
                      for 62 percent, or $519 million, of the $835 million in total PSC
                      overpayments referred for collection in 2007. Both of these PSCs

                      Table 1: Overpayments That PSCs Referred for Collection in 2007
                                                                    Number of
                                                                                              Dollar Amount of    Percentage of Total
                        PSC                                       Overpayment
                                                                                                Overpayments     Overpayment Dollars
                                                                     Referrals
                        1                                                              353       $265,887,671                     32%
                        2                                                              203       $252,721,299                     30%
                        3                                                              123         $53,669,785                    6%
                        4                                                         1,409            $52,667,600                    6%
                        5                                                               65         $38,796,266                    5%
                        6                                                              495         $35,004,560                    4%
                        7                                                               21         $27,486,724                    3%
                        8                                                               71         $19,299,679                    2%
                        9                                                               97         $15,957,395                    2%
                        10                                                             344         $13,442,469                    2%
                        11                                                             451         $12,171,683                    1%
                        12                                                              47         $11,647,722                    1%
                        13                                                              82         $10,951,325                    1%
                        14                                                             245         $10,655,761                    1%
                        15                                                             107          $4,478,215                    1%
                        16                                                              19          $3,951,992          Less than 1%
                        17                                                              72          $3,721,667          Less than 1%
                        18                                                              35          $2,544,128          Less than 1%
                             Total                                                4,239          $835,055,941
                      Source: OIG analysis of responses from PSCs and claims processors.




    OEI-03-08-00031   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS                                   6
F   I N D I N G               S

                            covered at least one State that has a large population of Medicare
                            beneficiaries and is considered by CMS to be vulnerable to fraud and
                            abuse. However, these PSCs were not the only PSCs that covered at
                            least one State considered vulnerable to fraud and abuse.
                            The amounts of overpayment dollars that PSCs referred for collection were
                            not always related to the size of PSCs’ oversight responsibility
                            Although PSCs might be expected to differ in the dollar amounts of
                            overpayments referred for collection, the amounts of PSC overpayments
                            in 2007 did not always correspond to the size of PSCs’ oversight
                            responsibility in 2007. As shown in Table 2, PSCs with the largest
                            overpayment amounts did not always have the largest oversight
                            responsibility (Medicare payments). PSC 1 referred the most

      Table 2: Comparison of PSC Overpayment Dollars Referred for Collection
      and PSC Oversight Responsibility in 2007
                                                                 Oversight                                                    Dollar Amount of
                         Dollar Amount of
                                                             Responsibility                         Dollar Amount of    Overpayments Referred
                           Overpayments
        PSC                                                  Ranking From                    Oversight Responsibility   for Collection for Every
                              Referred for
                                                                Largest to                      (Medicare Payments)      $1 Million in Oversight
                                Collection
                                                                  Smallest                                                        Responsibility
        1                     $265,887,671                                        16                  $4,732,243,732                    $56,186

        2                     $252,721,299                                          5                $19,980,994,913                    $12,648

        3                       $53,669,785                                         1                $62,447,462,696                       $859

        4                       $52,667,600                                       18                  $2,162,988,566                    $24,349

        5                       $38,796,266                                         2                $31,516,939,545                     $1,231

        6                       $35,004,560                                       14                  $7,062,482,499                     $4,956

        7                       $27,486,724                                         7                $17,947,334,212                     $1,532

        8                       $19,299,679                                       13                  $8,490,980,519                     $2,273

        9                       $15,957,395                                       17                  $3,177,404,337                     $5,022

        10                      $13,442,469                                         3                $28,093,398,172                       $478

        11                      $12,171,683                                         9                $15,960,804,802                       $763

        12                      $11,647,722                                       11                 $10,179,022,445                     $1,144

        13                      $10,951,325                                         4                $21,695,035,563                       $505

        14                      $10,655,761                                         8                $16,227,439,361                       $657

        15                        $4,478,215                                      12                 $10,100,139,551                       $443

        16                        $3,951,992                                      15                  $5,720,592,445                       $691

        17                        $3,721,667                                      10                 $11,236,890,885                       $331

        18                        $2,544,128                                        6                $19,634,590,542                       $130

            Total             $835,055,941                                                          $296,366,744,785

      Source: OIG analysis of responses from PSCs, claims processors, and CMS.


    OEI-03-08-00031         M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS                                             7
F   I N D I N G         S




                      overpayment dollars for collection ($266 million), but it had the third
                      smallest oversight responsibility ($5 billion) of all 18 PSCs. In addition,
                      PSCs 3 and 4 referred similar amounts of overpayment dollars for
                      collection, $54 million and $53 million, respectively, but had vastly
                      different oversight responsibility, $62 billion and $2 billion,
                      respectively.

                      PSC 4, which had the lowest oversight responsibility ($2 billion),
                      referred $24,349 in overpayments for every $1 million of its oversight
                      responsibility. This is in contrast to PSC 16 that had $6 billion in
                      oversight responsibility but referred $691 in overpayments for every
                      $1 million in oversight responsibility.

                      Fourteen of eighteen PSCs referred less than $5,000 in overpayments
                      per $1 million in oversight responsibility. The range in oversight
                      responsibility for these 14 PSCs was $6 billion to $62 billion.

While Part B payments represented 29 percent                   Of the $835 million in PSC
      of PSCs’ oversight responsibility, Part B                overpayments referred for
                                                               collection in 2007, $747 million, or
   overpayments accounted for 89 percent of
                                                               89 percent, was for Part B claims.
       PSCs’ overpayment dollars referred for
                                                               The remaining $88 million, or
                                    collection                 11 percent, was for Part A claims.
                      However, Part B payments represented 29 percent of all PSCs’ oversight
                      responsibility ($87 billion of $296 billion), and Part A payments
                      represented 71 percent of all PSCs’ oversight responsibility ($209 billion
                      of $296 billion). Table 3 provides the Part A and Part B overpayment
                      amounts and oversight responsibility for each PSC.
                      Thirteen of eighteen PSCs have responsibility for both Parts A and B.
                      Of these 13 PSCs, 8 had greater overpayment dollars for Part B. The
                      range of overpayment dollars by PSCs for Part B is $366,709 to almost
                      $266 million. For Part A, the range is $421,033 to almost $37 million.
                      DMEPOS made up 45 percent of Part B overpayment dollars that PSCs
                      referred for collection and 12 percent of PSCs’ oversight responsibility for
                      Part B
                      Of the $747 million in Part B overpayments that PSCs referred for
                      collection, $335 million, or 45 percent, was for DMEPOS claims. Of the
                      $87 billion in PSC oversight responsibility for Part B payments,
                      $10 billion, or 12 percent, was for DMEPOS payments.


    OEI-03-08-00031   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS    8
F       I N D I N G              S

                               The overpayment dollars PSCs referred for every $1 million of oversight
                               responsibility were much higher for DMEPOS than for either Part A or
                               the portion of Part B representing claims other than DMEPOS
                               (e.g., physician services). For every $1 million of oversight
                               responsibility for DMEPOS, PSCs referred $33,210 in DMEPOS
                               overpayments. This $33,210 was 79 times the amount PSCs referred in
                               Part A overpayments ($420 for every $1 million) and 6 times the
                               amount they referred in Part B other than DMEPOS overpayments
                               ($5,368 for every $1 million).

Table 3: PSC Overpayments and Oversight Responsibility by Parts A and B
(Table is sorted by Part B overpayment dollars.)
                                                            Part A Oversight                                                       Part B Oversight
                   Part A Overpayment                                                                  Part B Overpayment
    PSC                                                       Responsibility                                                         Responsibility
                               Dollars                                                                             Dollars
                                                        (Medicare Payments)                                                    (Medicare Payments)
                                                                                                                                                      1
    1            No Part A Responsibility            No Part A Responsibility                                $265,887,671            $4,732,243,732
    2                        $3,481,851                          $12,070,613,345                             $249,239,448             $7,910,381,568
                                                                                                                                                      1
    4            No Part A Responsibility            No Part A Responsibility                                  $52,667,600           $2,162,988,566
    5                          $866,508                          $21,707,089,556                               $37,929,758            $9,809,849,989
    6            No Part A Responsibility            No Part A Responsibility                                  $35,004,560            $7,062,482,499
    3                       $36,555,396                          $52,756,042,136                               $17,114,389            $9,691,420,560
    8                        $2,750,087                            $4,279,908,962                              $16,549,592            $4,211,071,557
                                                                                                                                                      1
    9            No Part A Responsibility            No Part A Responsibility                                  $15,957,395           $3,177,404,337
    11                         $421,033                          $11,193,436,002                               $11,750,650            $4,767,368,800
    10                       $2,311,651                          $19,021,729,177                               $11,130,818            $9,071,668,995
    13                       $1,482,400                          $15,227,410,607                                $9,468,925            $6,467,624,956
    7                       $19,179,904                          $13,733,706,121                                $8,306,820            $4,213,628,091
    12                       $4,319,131                            $7,424,014,110                               $7,328,591            $2,755,008,335
    14                       $5,647,201                          $12,442,205,187                                $5,008,560            $3,785,234,174
    17                       $1,158,425                            $8,053,052,238                               $2,563,242            $3,183,838,647
    15                       $3,670,740                            $7,384,097,684                                $807,475             $2,716,041,867
    18                       $2,177,419                          $18,419,225,539                                 $366,709             $1,215,365,003
    16                       $3,951,992                            $5,720,592,445                 No Part B Responsibility   No Part B Responsibility
         Total              $87,973,738                        $209,433,123,109                              $747,082,203           $86,933,621,676

Source: OIG analysis of responses from PSCs and claims processors.
1
This PSC has oversight responsibility for DMEPOS claims only.



                               Two provider types made up 80 percent of the overpayment dollars
                               The overpayment dollars for both Parts A and B by provider types
                               ranged from $2,982 to $336 million. Two types of providers made up
                               80 percent of the overpayment dollars referred for collection. These two
                               types of providers were physicians ($336 million) and DMEPOS


        OEI-03-08-00031        M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS                                                9
F   I N D I N G         S

                      suppliers ($335 million). Provider types with the next highest amounts
                      of overpayments were ambulance suppliers ($38 million), clinical labs
                      ($29 million), and home health providers ($29 million). Appendix B
                      contains the number of overpayment referrals and overpayment dollars
                      for each provider type.




    OEI-03-08-00031   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   10
   R E C O M M E N D A T I O N S




                  This OIG report presents the number, amount, and claim type of
                  overpayments that PSCs identified and referred to claims processors for
                  collection in 2007. A companion OIG report, entitled Collection Status
                  of Medicare Overpayments Identified by Program Safeguard
                  Contractors, OEI-03-08-00030, presents the status of collections, as of
                  June 2008, for these PSC overpayment referrals.
                  PSCs were established to strengthen CMS’s ability to detect and deter
                  fraud and abuse in the Medicare program. PSCs conduct investigations;
                  refer cases to law enforcement; and take administrative actions, such as
                  referring overpayments to claims processors for collection and return to
                  the Medicare program. As CMS transitions PSCs to ZPICs, CMS
                  expects ZPICs in high-fraud regions to focus on quick response to fraud
                  and administrative actions. Because of the emphasis on administrative
                  actions and the Medicare dollars at risk, it is important for CMS to
                  know the actual amount of Part A and Part B overpayments that PSCs
                  and ZPICs refer to claims processors.
                  In 2007, PSCs referred overpayments for collection that totaled
                  $835 million; two PSCs were responsible for 62 percent of this amount.
                  Although PSCs referred between $3 million and $266 million in
                  overpayments, the amounts of PSCs’ overpayment dollars were not
                  always related to the size of PSCs’ oversight responsibility (i.e., dollar
                  amounts of Medicare payments). PSCs’ oversight responsibility was
                  $296 billion. Of this $296 billion, 71 percent was for Part A payments
                  and 29 percent was for Part B payments. However, PSC overpayment
                  referrals for Part A claims represented 11 percent of all PSC referrals,
                  and Part B claims represented 89 percent of all PSC overpayment
                  referrals.
                  Based on the substantial differences between individual PSCs’
                  overpayment referrals and the significant difference between Part A
                  and Part B referrals, we recommend that CMS:
                  Determine why certain PSCs have low levels of overpayment dollars
                  referred for collection compared to their oversight responsibility
                  For PSCs that have low levels of overpayment dollars compared to their
                  oversight responsibility, CMS should determine whether these PSCs are
                  taking all necessary steps to identify overpayments during their
                  investigative work.




OEI-03-08-00031   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   11
R   E C O        M M E N D A T                           I O N                S

                      Determine why certain PSCs have low Part A overpayment dollars referred
                      for collection compared to their Part B overpayment dollars referred for
                      collection
                      For PSCs that have low levels of Part A overpayment dollars compared
                      to their Part B overpayment dollars, CMS should determine whether
                      these PSCs are taking all necessary steps to identify Part A
                      overpayments.


                      AGENCY COMMENTS AND OFFICE OF INSPECTOR GENERAL
                      RESPONSE
                      CMS concurred with both recommendations. In response to the first
                      recommendation, CMS agreed that there has not been a clear
                      correlation between the levels of overpayment dollars recovered and the
                      scope of PSCs’ oversight responsibility. CMS stated that one of the
                      limitations of the original PSC structure was that PSCs were organized
                      by specific payment type and geographical area. CMS explained that in
                      an effort to improve its ability to more effectively fight fraud and abuse,
                      it has established the new ZPIC contracting strategy. The new strategy
                      allows ZPICs to review claims across all benefit categories. CMS
                      believes that the new strategy should address OIG’s concerns regarding
                      the gap between scope of responsibility and level of dollars recovered.
                      In response to the second recommendation, CMS stated that the PSC
                      contracting strategy limited the effectiveness of certain PSCs to collect
                      larger amounts of overpayments. Under the new ZPIC strategy, each
                      ZPIC has responsibility for all claim types in its geographic zone and is
                      required to have staff with expertise in each claim type. CMS stated
                      that this approach will allow for greater recoveries as overpayment
                      issues can be identified across multiple payors and benefit categories.
                      CMS also reported that it will monitor both overpayment and collection
                      activities to ensure that its contractors are adequately performing their
                      oversight responsibilities.

                      OIG believes it is too early to determine whether the ZPIC contracting
                      strategy will address all the issues in this report. Until the transition
                      from PSCs to ZPICs is complete and the results of ZPICs’ overpayment
                      identification activities are evaluated, CMS’s monitoring of
                      overpayment and collection activities is critical. OIG believes that until
                      the ZPICs are fully transitioned, CMS should also monitor the
                      overpayment activities of the remaining PSCs.

                      The full text of CMS’s comments is provided in Appendix C.



    OEI-03-08-00031   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   12
R   E C O M M E N D A T I O N                                                         S
A    A P P E N D I X ~ A
      P P E N D I X ~ A
                        B




                Table A-1: Benefit Integrity Task Orders in 2007

                  Program Safeguard Contractors                                                          Number of Benefit
                                                                                                      Integrity Task Orders

                  AdvanceMed                                                                                             3

                  Cahaba Safeguard Administrators, LLC                                                                   2

                  Computer Sciences Corporation                                                                          1

                  IntegriGuard, LLC                                                                                      1

                  SafeGuard Services, LLC                                                                                6
                  TriCenturion                                                                                           3

                  TrustSolutions, LLC                                                                                    2

                      Total                                                                                             18
                Source: Centers for Medicare & Medicaid Services, Office of Financial Management, Program Integrity Group.




    OEI-03-08-00031           M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS                           13
          A P P E N D I X ~ B


          Table B-1: Parts A and B Overpayments That Program Safeguard
          Contractors Referred for Collection in 2007 by Provider Type


                                                                              Number of
                                                                                                      Dollar Amount of          Percentage of
           Provider Types                                                   Overpayment                                                     1
                                                                                                        Overpayments     Overpayment Amount
                                                                                Referrals
         Physician Services                                                               1,375         $336,047,666                    40%

         Durable Medical Equipment, Prosthetics,
                                                                                          1,859         $334,512,666                    40%
         Orthotics, and Supplies Provider

         Ambulance Services                                                                    66         $38,101,173                     5%

         Clinical Laboratory or Independent
                                                                                               191        $29,310,457                     4%
         Diagnostic Testing Facility

         Home Health Agency                                                                     52        $29,266,860                     4%
         Hospital                                                                              331        $26,400,051                     3%
         Outpatient Rehabilitation Facility                                                    17         $18,581,818                     2%
         Hospice                                                                                10        $12,906,242                     2%

         Physical Therapist or Occupational
                                                                                                27         $5,132,068                     1%
         Therapist

         Skilled Nursing Facility                                                              46          $3,301,257           Less than 1%
         Partial Hospital Program                                                                2           $403,935          Less than 0.1%
         Rural Health Clinic                                                                     1           $335,685          Less than 0.1%
         Psychology Services                                                                     7           $256,973          Less than 0.1%
         Social Work Services                                                                  227           $238,852          Less than 0.1%
         End Stage Renal Disease Facility                                                       2             $97,814          Less than 0.1%
         Radiology Services                                                                    15             $69,041          Less than 0.1%
         Ambulatory Surgical Center                                                              3            $66,875          Less than 0.1%
         Beneficiary                                                                             1             $2,982          Less than 0.1%
                 2
         Other                                                                                   7            $23,526          Less than 0.1%
            Total                                                                         4,239         $835,055,941

     Source: Office of Inspector General analysis of responses from program safeguard contractors (PSC) and claims processors.
     1
         The percentages in this column add up to more than 100 percent because of rounding.
     2
         Includes six referrals for other provider types and one referral for which the PSC did not specify provider type.




OEI-03-08-00031               M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS                                       14
    A P PEN 0                      x         c


Agency Comments




          DEPARTMENT OF HEALTH & HUMAN SERVICES                                      Centers for Medicare & Medicaid SeIVic6s


                                                                                     Administrator
                                                                                     Washing lon, DC 20201




            DATE:            FEB 0 22010
           TO:            . Daniel R. Levinson 

                            Inspector General 


            FROM: 	        Charlene Frizzera 

                                               /S/
                           Acting Administrator 


            SUBJECT: 	 Office ofinspector General (OIG) Draft Report: "Medicare 

                       Overpayments Identified by Program Safeguard Contractors" 

                       (OEI-03-08-00031) 



            Thank you for the opportunity to comment on the Office pf Inspector General's (OIG) draft " 

            report entitled, "Medicare Overpayments Identified by Program Safeguard Contractor." The 

            Centers for Medicare & Medicaid Services (CMS) appreciates the time and resources the 

            OIG has invested to research and report on this "issue.           .


             Pursuant to the authority set forth in section 1893 of the Social Security Act, CMS 

             created the Program Safeguard Contractors (PSCs) in 1999 in order to provide a more 

             focused effort for detecting and preventing fraud and abuse, and to act as liaisons for law 

             enforcement activities. Under the PSC model, companies competing to become a PSC 

             could choose the Medicare issues on which they wanted to bid. For example, one PSC 

           . could focus only on program integrity issues related to physician claims, while another
             PSC might focus solely on claims related to Durable MedIcal Equipment, Prosthetics,
             Orthotics and Supplies (DMEPOS), and a third PSC might focus on both physician and
             inpatient claims. This structure created an environment where CMS had 18 different PSC
             task orders with varying levels of focus resulting in a coordination of effort that was often
             times challenging. One ofthe limitations of the original PSC structure was that the PSCs
             were organized by specific payment type and geographiC area. There are geographic
             sections of the country where there is very little fraud and sections where there is a
             tremendous [).mount of fraudulent activity. The number of claims for which a PSC has
             oversight responsibility does not necessarily correlate to the amount of fr\lud that is
             found in a geographical location. As a result, there was not a strong correlation of the
             level of overpayments and the size of a PSCs oversight responsibility.

            In an effort to improve CMS' ability to more effectively fight fraud. and abuse, CMS 

            established the new Zone Program Integrity Contractor (ZPIC) contracting strategy. This 

            change from the PSCs to the ZPICs represents a significant shift in CMS' approach to 

            utilizing benefit integrity contractors..One of the primary benefits ofthe ZPIC strategy is 





    OEI·03·08·00031         MEDICARE OVERPAYMENTS IDENTIFIED BY PSCs                                                            15
A   P   P E N D     I X ~    C




           OEI-03-08-00031       M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   16
A   P   P E N D      I X ~     C




         OEI-03-08-00031     M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   17
   A C K N O W L E D G M E N T S



                  This report was prepared under the direction of Robert A. Vito, Regional
                  Inspector General for Evaluation and Inspections in the Philadelphia
                  regional office, and Linda M. Ragone, Deputy Regional Inspector
                  General.

                  Isabelle Buonocore served as the team leader for this study. Other
                  principal Office of Evaluation and Inspections staff from the
                  Philadelphia regional office who contributed to the report include
                  Conswelia McCourt and Cynthia R. Hansford; other central office staff
                  who contributed include Scott Manley.




OEI-03-08-00031   M E D I C A R E O V E R PAY M E N T S I D E N T I F I E D   BY   PSCS   18
                 Office of Inspector General
                                  http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as
amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting
audits with its own audit resources or by overseeing audit work done by others. Audits
examine the performance of HHS programs and/or its grantees and contractors in carrying
out their respective responsibilities and are intended to provide independent assessments of
HHS programs and operations. These assessments help reduce waste, abuse, and
mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide
HHS, Congress, and the public with timely, useful, and reliable information on significant
issues. These evaluations focus on preventing fraud, waste, or abuse and promoting
economy, efficiency, and effectiveness of departmental programs. To promote impact, OEI
reports also present practical recommendations for improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations
of fraud and misconduct related to HHS programs, operations, and beneficiaries. With
investigators working in all 50 States and the District of Columbia, OI utilizes its resources
by actively coordinating with the Department of Justice and other Federal, State, and local
law enforcement authorities. The investigative efforts of OI often lead to criminal
convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
OIG, rendering advice and opinions on HHS programs and operations and providing all
legal support for OIG’s internal operations. OCIG represents OIG in all civil and
administrative fraud and abuse cases involving HHS programs, including False Claims Act,
program exclusion, and civil monetary penalty cases. In connection with these cases, OCIG
also negotiates and monitors corporate integrity agreements. OCIG renders advisory
opinions, issues compliance program guidance, publishes fraud alerts, and provides other
guidance to the health care industry concerning the anti-kickback statute and other OIG
enforcement authorities.
